Supreme Court of the United States
Lasher v. United States USCA2 No. 19-1748

Application to leave to file the writ of certiorari in excess of the word limits

 

denied the Plaintiff’s August 29, 2019 newly-discovered-evidence motion for a new
trial, challenging the denial of a newly-discovered-evidence motion for a new trial after the May 15, 2015
verdict, However, the suppressed exculpatory video recordings were NOT turned over to the Plaintiff until
July 24, 2018, which was more than 3 years after the Plaintiff’s verdict. Therefore, it is IMPOSSIBLE for

“such motions be made within three years after verdict”.

 

Judge Buchwald covered up the Prosecution’s misconduct and denied the Plaintiff’s demand for a new

trial based on newly discovered evidence as “untimely”. She chose to ignore the Supreme Court’s recent ruling
of Arsean Lamone HICKS v. Director, DEPARTMENT OF CORRECTIONS. Record No. 131945. Decided:
February 26, 2015 in that “the statute of limitations for habeas claims must be tolled while such evidence is
suppressed.” The Appellate Court should grant the Plaintiff a new trial based on the Supreme Court’s
recent ruling of Arsean Lamone HICKS vy. Director, DEPARTMENT OF CORRECTIONS. Record No. 131945.
Decided: February 26, 2015, and based on the fact the newly discovered evidence were not tumed over to the
Plaintiff until July 24, 2018, more than 3 years after the Plaintiff's verdict; thus the Plaintiff is not capable nor
able to file within the 3 years statute of limitation. Therefore, the Plaintiff is seeking to toll the statute.
Further, the Plaintiff was a victim of IDENTITY THEFT:

A. The exculpatory video recordings evidence, which were previously suppressed by the prosq

  

DANIEL RICHENTHAL, show:
(J) The Plaintiff was not present at the alleged crime scene on the dates (6/1/2012,6/1 PROP REUe RORIGLERK
7/17/2012, 8/13/2012, 8/16/2012, 8/27/2012, and 10/2/2012 the alleged crimes were supposedly
committed, and

(2) The Plaintiff was working in a different pharmacy and not engaged in any of the alleged acts
the prosecution describes, such as remotely monitoring or supervising, nor directing employees in other
locations to commit the alleged crime.
(3) The Plaintiff was working at a different pharmacy on October 2, 2012 when oxycodone was
dispensed to “unkempt" individuals,
(4) The Plaintiff never dispensed the drug "butalbital" as indicted, charged, and convicted of, and proof
of same was withheld from the jury.
Most importantly, the Plaintiffs lack of presence is also shown on the work schedule and EZY passes. The
governing pharmacy law in the Plaintiff's case requires her to be present at the pharmacy at the time the drug was
"shipped" on the dates referenced. The Government has a copy of the work schedule from the Hellertown

Pharmacy (HP) and Palmer Pharmacy & Much More (PP) showing Plaintiff was not at work during the dates

and times of the shipments referenced.

 

Due to the nature of the Plaintiff’s case, in which a wrongful conviction that relied on testimony that is
easily proven to be false, and built on withheld and suppressed evidence, and on misrepresenting both the law
and material facts to the jury, the Plaintiff is requesting leave to file the writ of certiorari in excess of the word
limits, to an additional 35 to 40 pages.

The United States Supreme Court stressed that a defendant’s due process rights are violated both when a

prosecutor knowingly presents false testimony and when he knowingly fails to correct such perjury. The Court
also held that the same rule applies even when the false testimony concers only the witness’s credibility, since
“a lie is a lie, no matter what its subject.” Napue v. Illinois, 360 U.S. 264 (1959). Here, the lies that brought
about this wrongful conviction even extend to the District Court Judge Naomi Reice Buchwald who deceived the
jury to secure a wrongful conviction. Bivens v. Six Unknown Fed. Narcotics Agents, 403 U.S. 388 (1971)

Further, the Plaintiff can establish a violation of substantive due process rights by an executive official,
Judge Naomi Reice Buchwald, by showing (1) that the official violated one or more fundamental constitutional
rights and (2) that the conduct of the executive official was shocking to the contemporary conscience.” Truong Vv.
Hassan, 829 F.3d 627, 631 (8" City 2016) (internal quotations and citations omitted). “To be conscience
shocking, the government action must be ‘truly irrational, that is, something more than ... arbitrary, capricious,
or in violation of state law.” Draper v. City of Festus, 782 F.3d 948, 953 (8" Cir. 2015) (quoting Weiler v. Purkett
137 F.3d 1047, 105 (8" Cir. 1998) (en banc)).

Here, the Defendant’s actions rise to the “conscience shocking” level as a result of Judge Naomi Reice
Buchwald’s conduct of a kangaroo court, and only a higher court can stop this judicial misconduct.

For the aforementioned reasons, the Plaintiff is requesting leave to file the writ of certiorari in excess of

 

the word limits, to an additional

 

Respectfully submitted,

Lomadourhsr

Lena Lasher, 16 Patton Street, High Bridge, NJ 08829
